        --
                                 CLOSE OUT MEMORANDUM




        -
                                       M91090037




         -
         -
                                 program director for
                                                   ) - 4
                      ,                                     ~-a
                       brought to our attention a letter from
                    (complainant) of 4-• The letter
                          @- \
         transmits proposal               suggests a number of possible
         reviewers for               proposal, and includes the following
         paragraph.
             There is also a situation which we feel you should be aware of.
        -and                                are planning a program similar to
          ours on          membranesrwe know this b e c a u s e was here
           several months ago and asked many questions about our programs.
                     is a PI on our           proposal, and he recently received
           for revlew a proposal that 4-mubmitted                     to NSF.
        c       a      n see that some of what                 learned here was
           incorporated into this proposal, although not in a way that
           should necessarily be considered imprudent. Thus, we feel that
          there is potential for conflict of interest if -or-
          were used as a reviewer^.^'
           The program referred this matter to OIG because of sentence five
-   .
           in - the above paragraph as it seemed broad enough to include an
           allegation of misconduct c o n c e r n i n g and-     (subjects)
    - - m eofh t
                                                                                   I
        OIG agreed that the meaning of the fifth sentence seems to cover
        a range of possible disclosures going from a caution about
        possible biases in using competing investigators as reviewers to
        possible intellectual theft. In conducting its own inquiry, OIG
        determined that there is no allegation of any misconduct in
        0 letter. The letter means only to convey information
        about the identities of active research competitors and alerts
        the program officer to possible competitors' biases should the             I
        subjects be selected as reviewers.
                                                                                   II
         We are closing this as a misconduct case for lack of substance.




         26 September 1991


         cc: Inspector General
